TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Toll-Free Access for the 2007 Filing Season
                 Was Effective, but the Quality and Level of
                   Customer Service for Spanish-Speaking
                        Taxpayers Could Be Improved



                                         August 31, 2007

                              Reference Number: 2007-40-160




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  August 31, 2007


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Toll-Free Access for the 2007 Filing Season Was
                                Effective, but the Quality and Level of Customer Service for
                                Spanish-Speaking Taxpayers Could Be Improved (Audit # 200740022)

 This report presents the results of our review to evaluate the customer service toll-free telephone
 access during the 2007 Filing Season.1 This audit was included in our Fiscal Year 2007 Annual
 Audit Plan.

 Impact on the Taxpayer
 The Internal Revenue Service (IRS) provided taxpayers with effective access to its toll-free
 telephone system during the 2007 Filing Season. However, the quality and level of customer
 service for Spanish applications2 were lower than those provided for English applications and
 could be improved. In addition, the next time the IRS uses a recorded message to provide
 information to taxpayers, it could improve customer service by adding the option of returning to
 the main menu, if adequate system capacity exists.

 Synopsis
 Each year, millions of taxpayers contact the IRS seeking assistance in understanding the tax law
 and meeting their tax obligations by calling the various Customer Account Services Toll-Free



 1
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
 2
  The toll-free telephone assistance lines are subdivided into categories called applications, each of which is staffed
 with a group of assistors that have received specialized training to help taxpayers with specific tax issues.
                       Toll-Free Access for the 2007 Filing Season Was Effective,
                            but the Quality and Level of Customer Service for
                             Spanish-Speaking Taxpayers Could Be Improved


telephone assistance lines.3 During the 2007 Filing Season, the IRS made available
approximately 11,000 assistors to answer the toll-free telephone lines at 24 call centers located
throughout the United States and Puerto Rico.
The IRS planned and met the 2007 Filing Season toll-free performance measurement goals of
81.6 percent Level of Service and 258 seconds Average Speed of Answer and provided
taxpayers with effective access to its toll-free telephone system. Level of Service is the IRS’
primary measure of providing taxpayers with access to an assistor. Average Speed of Answer is
the average number of seconds taxpayers waited in the queue (on hold) before receiving services.
In preparation for the 2007 Filing Season, the IRS expected and planned for 16.1 million calls to
assistors and 18.4 million calls to the automated lines–an increase of 8.2 percent over the
2006 Filing Season. It expected this increase to result from taxpayers calling the toll-free
assistance lines to ask about the Telephone Excise Tax Refund (TETR).4 However, the expected
number of TETR calls did not materialize; overall, assistors answered 9.7 percent fewer calls and
the automated lines received 5 percent fewer calls than planned.
The IRS also planned to provide approximately 1.1 million more toll-free telephone assistor
services. It defines a service as an issue or multiple issues handled by a single assistor.
Although the numbers of toll-free telephone automated calls/services provided have decreased
steadily over the last 4 filing seasons, Customer Account Services function assistor services
provided remained at 17.4 million for the last 2 filing seasons. Toll-free telephone assistors
answered only 29,095 TETR calls during the 2007 Filing Season, or less than 2 percent of the
2.3 million TETR calls expected. However, they were able to answer an additional
700,000 (5 percent) more non-TETR calls than planned. When the expected volume of TETR
calls did not materialize, the Customer Account Services function used the additional resources
to provide a higher Level of Service than planned and transferred more experienced assistors to
work taxpayer correspondence.
The IRS provides toll-free telephone service to Spanish-speaking taxpayers by using assistors in
designated call sites responsible for the Spanish applications. For the 2007 Filing Season, calls
in the Spanish applications were abandoned at a rate of 21 percent, while calls in the English
applications were abandoned at a rate of 13 percent. In addition, the accuracy rate for answers
provided for the Spanish applications was lower than that for the English applications. The
Average Speed of Answer performance measure and other workload indicators for Spanish


3
  The IRS refers to the suite of 15 telephone lines to which taxpayers can make calls as “Customer Account Services
Toll-Free.” Unless otherwise specified, all references made in this report to the toll-free telephone system
performance data are for Customer Account Services Toll-Free telephone assistance lines through April 21, 2007,
and comparable dates in prior years.
4
  The TETR is a one-time refund, available on the 2006 Federal income tax return, designed to refund previously
collected long-distance Federal excise taxes. It is available to anyone who paid long-distance taxes on landline, cell
phone, or Voice Over Internet Protocol service.
                                                                                                                     2
                   Toll-Free Access for the 2007 Filing Season Was Effective,
                        but the Quality and Level of Customer Service for
                         Spanish-Speaking Taxpayers Could Be Improved


applications for the 2007 Filing Season were also higher than those for English applications.
This trend has occurred for the last four filing seasons.
Finally, to help minimize assistors’ time answering TETR-related questions, the IRS provided
taxpayers the option of hearing an automated message about the TETR. After the recording
ended, callers were not returned to the main menu so they could make another selection or speak
with an assistor; instead, the calls were ended. We believe callers should be given the option to
return to the main menu, which provides better taxpayer service and is common practice on
customer service telephone lines.

Recommendations
We recommended the Commissioner, Wage and Investment Division, (1) monitor the
performance for the Spanish applications and take appropriate corrective actions if performance
does not improve and (2) ensure taxpayers have the option of returning to the main menu the
next time the IRS uses a recorded message to provide information to taxpayers, if adequate
system capacity exists.

Response
IRS management agreed with both of our recommendations. Management will continue
monitoring performance on the Spanish applications and take appropriate actions as needed.
Management agreed that, if and when another recorded message is needed, they will ensure
taxpayers have the option of returning to the main menu, if adequate system capacity exists.
Management’s response to the draft report is included as Appendix VI.

Office of Audit Comment
In its response, the IRS stated that it disagreed with the way we characterized the examples
found on report page 13 concerning why quality is not as high for Spanish applications as it is for
English applications. The IRS stated the examples in the report are not valid representations of
why quality is not as high for Spanish calls. However, the examples in the report were provided
by IRS quality review staff to be representative of the types of problems identified in the calls
reviewed.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




                                                                                                  3
                          Toll-Free Access for the 2007 Filing Season Was Effective,
                               but the Quality and Level of Customer Service for
                                Spanish-Speaking Taxpayers Could Be Improved




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Internal Revenue Service Provided Taxpayers With
          Effective Access to Its Toll-Free Telephone System During
          the 2007 Filing Season..................................................................................Page 4
          The Quality and Level of Customer Service for Spanish Applications
          Were Lower Than Those Provided for English Applications.......................Page 11
                    Recommendation 1:........................................................Page 13

          The Telephone Excise Tax Refund Automated Message
          Did Not Allow Callers the Option of Returning to the
          Main Menu....................................................................................................Page 14
                    Recommendation 2:........................................................Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 16
          Appendix II – Major Contributors to This Report ........................................Page 17
          Appendix III – Report Distribution List .......................................................Page 18
          Appendix IV – Joint Operations Center........................................................Page 19
          Appendix V – Toll-Free Telephone Services Individual
          Product Lines for the 2006 and 2007 Filing Seasons ...................................Page 21
          Appendix VI – Management’s Response to the Draft Report ......................Page 23
       Toll-Free Access for the 2007 Filing Season Was Effective,
            but the Quality and Level of Customer Service for
             Spanish-Speaking Taxpayers Could Be Improved




                    Abbreviations

CAS           Customer Account Services
FTE           Full-Time Equivalent
IRS           Internal Revenue Service
TETR          Telephone Excise Tax Refund
                        Toll-Free Access for the 2007 Filing Season Was Effective,
                             but the Quality and Level of Customer Service for
                              Spanish-Speaking Taxpayers Could Be Improved




                                              Background

Each year, millions of taxpayers contact the Internal Revenue Service (IRS) by calling the
various toll-free telephone assistance lines to seek help in understanding tax laws and meeting
their tax obligations. Taxpayers called the IRS toll-free telephone assistance lines approximately
51.9 million times1 during the 2007 Filing Season.2 Of these calls, about 18.8 million were made
to the toll-free telephone number, 1-800-829-1040, that taxpayers call to ask tax law or
account-related questions. In addition, more than 7.2 million calls were made to the IRS
automated TeleTax system that provides recorded tax law and tax refund information. Figure 1
shows the number of calls made to the toll-free telephone assistance lines, including about
14.5 million calls answered during the 2007 Filing Season.3
               Figure 1: Calls Handled by the IRS in the 2007 Filing Season


                     11.3 million                                                15.1 million
                     Called After                                                Received
                     Hours/                                      29.1%           Automated
                     Transfer Out
                                                21.8%                            Service




                     10.9 million                                                14.5 million
                                               21.0%             28.0%
                     Hung up or                                                  Reached an
                     Disconnected
                                                                                 Assistor
                     Before
                     Receiving Service




                    Source: IRS Enterprise Telephone Data Warehouse.4



1
  These calls were made to the suite of 15 telephone lines the IRS refers to as “Customer Account Services
Toll-Free” and included calls made to the TeleTax system. Unless otherwise specified, all references made in this
report to the toll-free telephone system performance data are for Customer Account Services Toll-Free telephone
assistance lines through April 21, 2007, and comparable dates in prior years.
2
  The filing season is the period from January through mid-April of each year when most individual income tax
returns are filed. All references to the 2007 Filing Season made in this report, unless otherwise specified, are for the
period from January 1 to April 21, 2007.
3
  Due to rounding, numbers in the report may not always equal the sum of the totals or 100 percent.
4
  The Enterprise Telephone Data Warehouse is the official source for all data related to toll-free telephone measures
and indicators. Numbers presented in this report are based on various reports dated not later than May 11, 2007.
                                                                                                                Page 1
                        Toll-Free Access for the 2007 Filing Season Was Effective,
                             but the Quality and Level of Customer Service for
                              Spanish-Speaking Taxpayers Could Be Improved



The toll-free telephone assistance lines are further subdivided into categories called
“applications,” each of which is staffed with a group of customer service representatives
(assistors) who have received specialized training to assist taxpayers with specific tax issues.
Assistors answer taxpayer questions involving tax law and tax account-related conditions such as
refunds, balance-due billing activity, and changes to the amount of tax owed. For example, if an
individual taxpayer calls to find out where to mail a tax return, the call would be routed to an
assistor who has been trained to handle IRS procedural issues for individual taxpayers. If a
business taxpayer calls to find out the taxes due on a business account, the call would be routed
to an assistor who handles balance-due questions for the business taxpayer. Figure 2 shows the
number of calls handled during the 2007 Filing Season.
                 Figure 2: Toll-Free Telephone Service Product Lines and
                 Number of Calls Answered During the 2007 Filing Season5

                                                              Remaining 8 Toll-Free
                                       Business Master File
                                                                 Product Lines
                                       Customer Response
                                                                 582,545 (4%)
                                          637,489 (4%)
                Small Business/
                 Self-Employed
             Individual Master File
              Customer Response
                  900,626 (6%)

                                                                           Individual Income
          Refund Hotline
                                                                              Tax Services
          1,034,519 (7%)
                                                                            6,960,894 (48%)




         Refund Call Back
          1,285,419 (9%)


                      Wage and Investment
                      Individual Master File          Business and
                       Customer Response                Specialty
                         1,575,947 (11%)          Tax Services 1,588,021
                                                          (11%)




          Source: IRS Enterprise Telephone Data Warehouse.

During the 2007 Filing Season, the IRS made available approximately 11,000 assistors to answer
the toll-free telephone lines at 24 call centers located throughout the United States and
Puerto Rico and provided taxpayers with effective access to its toll-free telephone system. The
Director, Customer Account Services (CAS), Wage and Investment Division, manages tax law


5
 The Individual Master File is the IRS database that maintains transactions or records of individual tax accounts.
The Business Master File is the IRS database that consists of Federal tax-related transactions and accounts for
businesses. These include employment taxes, income taxes on businesses, and excise taxes.
                                                                                                             Page 2
                   Toll-Free Access for the 2007 Filing Season Was Effective,
                        but the Quality and Level of Customer Service for
                         Spanish-Speaking Taxpayers Could Be Improved



and account telephone calls through the Joint Operations Center. Appendix IV explains the role
of the Joint Operations Center and how telephone calls are routed to automated services or an
assistor. Appendix V shows the Toll-Free Telephone Services Individual Product Lines for the
2006 and 2007 Filing Seasons.
This review was performed at the Joint Operations Center in Atlanta, Georgia, during the period
January through June 2007. The audit was performed in accordance with Government Auditing
Standards. The scope of this audit did not include an evaluation of the quality of toll-free
telephone services. The performance data presented were provided by IRS management
information systems. We did not verify the accuracy of these data because of resource
limitations. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                          Page 3
                         Toll-Free Access for the 2007 Filing Season Was Effective,
                              but the Quality and Level of Customer Service for
                               Spanish-Speaking Taxpayers Could Be Improved




                                        Results of Review

The Internal Revenue Service Provided Taxpayers With Effective
Access to Its Toll-Free Telephone System During the 2007 Filing
Season
The IRS planned and met the 2007 Filing Season toll-free performance measurement goals of
81.6 percent Level of Service and 258 seconds Average Speed of Answer and provided
taxpayers with effective access to its toll-free telephone system. Level of Service is the IRS’
primary measure of providing taxpayers with access to an assistor. Average Speed of Answer is
the average number of seconds taxpayers waited in the queue (on hold) before receiving services.
Figure 3 shows the actual performance measures for the last four filing seasons.
                       Figure 3: Comparison of the Performance Measures
                                 for the 2004–2007 Filing Seasons

             Performance Measure               2004            2005            2006            2007


             Level of Service                 85.0%           81.8%           82.0%           83.1%

             Average Speed of
                                                184             255             213             246
             Answer (seconds)

             Assistor Calls
                                               16.8            15.6            14.6            14.6
             Answered (millions)
            Source: IRS Enterprise Telephone Data Warehouse.

In addition, from January through March 2007, 94 percent of the taxpayers who called the IRS
toll-free telephone system and completed customer satisfaction surveys regarding their
experience gave the IRS a rating of 4 (somewhat satisfied) or 5 (very satisfied) on a 5-point
scale.6 The overall satisfaction rating was 4.6. Only 2 percent of the taxpayers surveyed were
dissatisfied (i.e., gave a rating of 1 or 2).




6
    The only taxpayers surveyed were a sample of those that had completed their interactions with the IRS.
                                                                                                             Page 4
                       Toll-Free Access for the 2007 Filing Season Was Effective,
                            but the Quality and Level of Customer Service for
                             Spanish-Speaking Taxpayers Could Be Improved



The IRS planned for more calls than it received and provided a higher Level of
Service than in the 2006 Filing Season
In preparation for the 2007 Filing Season, the IRS expected and planned for 16.1 million calls to
assistors and 18.4 million calls to the automated lines–an increase of 8.2 percent over the
2006 Filing Season. It expected this increase to result from taxpayers calling the toll-free
assistance lines to ask about the Telephone Excise Tax Refund (TETR).7 However, the expected
number of TETR calls did not materialize; overall, assistors answered 9.7 percent fewer calls and
the automated lines received 5 percent fewer calls than planned.
The IRS also planned to provide approximately 1.1 million more toll-free telephone assistor
services. It defines a service as an issue or multiple issues handled by a single assistor. In
general, one service equates to one or more taxpayer questions answered by one assistor. For
example, one call might result in the IRS counting three services provided for one taxpayer
(1) asking a tax law question and requesting a form (two questions equals one service by one tax
law assistor), (2) asking the status of an Employer Identification Number (one service by a
business assistor), and (3) asking the status of the customer’s individual account (one service by
an individual account assistor).
Although the numbers of toll-free telephone automated calls/services provided have decreased
steadily over the last 4 filing seasons, CAS function assistor services provided remained at
17.4 million for the last 2 filing seasons. Toll-free assistors answered only 29,095 TETR calls
during the 2007 Filing Season, or less than 2 percent of the 2.3 million TETR calls expected,
However, they were able to answer an additional 700,000 (5 percent) more non-TETR calls than
planned.
Figure 4 shows the number of toll-free telephone services provided for the last four filing
seasons.




7
 The TETR is a one-time refund, available on the 2006 Federal income tax return, designed to refund previously
collected long-distance Federal excise taxes. It is available to anyone who paid long-distance taxes on landline, cell
phone, or Voice over Internet Protocol service.




                                                                                                              Page 5
                        Toll-Free Access for the 2007 Filing Season Was Effective,
                             but the Quality and Level of Customer Service for
                              Spanish-Speaking Taxpayers Could Be Improved



                  Figure 4: Comparison of Toll-Free Telephone Services
                  Provided for the 2004–2007 Filing Seasons (in millions)8

    Services Provided                             2004               2005               2006              2007

    Automated Services Provided9                  26.5               19.8               18.6              17.5

    Assistor Services Provided                    19.6               18.3               17.4              17.4

    Totals                                        46.1               38.1               36.0              34.9
Source: IRS Enterprise Telephone Data Warehouse.

More taxpayers are using tax preparation software and the IRS web site (IRS.gov) to obtain tax
forms and answers to tax law questions and to prepare tax returns. As calls to the toll-free
telephones lines have decreased, visits to IRS.gov have increased (from 55.8 million in the
2004 Filing Season to 133.5 million in the 2007 Filing Season).
In addition, during the 2007 Filing Season, taxpayers made approximately 32.2 million attempts
to access the Internet Refund Fact of Filing application, which allows taxpayers to check the
status of their tax refunds via IRS.gov. This represented a 26.9 percent increase from the
2006 Filing Season (from 25.4 million to 32.2 million).

Level of Service was higher than planned for the 2007 Filing Season
The IRS devotes considerable resources to its toll-free telephone operations. Telephones
historically have been the first choice for taxpayers who contact the IRS for tax assistance. Each
year, the IRS allocates Full-Time Equivalents (FTE)10 to the CAS function for operation of the
toll-free telephone lines. Based on these budgeted resources, the CAS function plans for the
number of taxpayer calls that will be answered by assistors and the number of services taxpayers
may need during the calls. The CAS function had available 550 more FTEs for toll-free
telephone operations during the 2007 Filing Season to meet the expected demand for TETR
calls.
When the expected number of TETR calls did not materialize, the CAS function used the
additional FTEs to provide a higher Level of Service than planned and transferred more
experienced assistors to work taxpayer correspondence.

8
  Due to changes in the methodology the IRS used to capture toll-free telephone data, the totals for previous filing
seasons in Figure 4 may not equal the totals presented in previous Treasury Inspector General for Tax
Administration reports.
9
  The Automated Services Provided category does not include the number of services provided by the Internet
Refund Fact of Filing application. Automated Services Provided equals Automated Calls.
10
   An FTE is a measure of labor hours. One FTE is equal to 8 hours multiplied by the number of compensable days
in a particular fiscal year. For Fiscals Year 2006 and 2007, 1 FTE was/is equal to 2,080 staff hours.
                                                                                                             Page 6
                         Toll-Free Access for the 2007 Filing Season Was Effective,
                              but the Quality and Level of Customer Service for
                               Spanish-Speaking Taxpayers Could Be Improved



The IRS blocked fewer calls
A blocked call is one that cannot be connected immediately because either no circuit is available
at the time the call arrives, (i.e., the taxpayer receives a busy signal) or the system is
programmed to block calls from entering the queue when the queue backs up beyond a defined
threshold (i.e., the taxpayer receives a recorded announcement to call back at a later time). The
IRS refers to the latter type of blocked call as a courtesy disconnect.
To ensure it provides taxpayers with the planned Level of Service, the IRS attempts to balance
the components of the Level of Service to reach its goals. For example, it controls the number of
calls allowed into the toll-free telephone system to help improve the taxpayers’ experiences once
they are connected. The number of taxpayers in the system directly affects taxpayers’ wait times
in the queue before receiving services (the Average Speed of Answer). As wait times in the
queue increase, taxpayers hang up more often before speaking to assistors.11 Inversely, fewer
taxpayers in the system result in shorter queue times and fewer hang ups.
The IRS blocked more taxpayer calls in the 2006 Filing Season in an attempt to reduce
taxpayers’ time spent waiting to speak to assistors but reversed this trend for the 2007 Filing
Season by blocking significantly fewer calls. Total blocked calls decreased in the 2007 Filing
Season by 53.1 percent. The IRS made the business decision to allow more taxpayers into the
queue, thus allowing them to decide how long they were willing to wait before speaking to an
assistor rather than having the IRS decide for them.
Figure 5 shows a comparison of various components (workload indicators) the IRS uses
to manage the Level of Service.




11
     The IRS refers to calls that disconnect after reaching the queue as secondary abandons.
                                                                                               Page 7
                       Toll-Free Access for the 2007 Filing Season Was Effective,
                            but the Quality and Level of Customer Service for
                             Spanish-Speaking Taxpayers Could Be Improved



          Figure 5: Comparison of Toll-Free Telephone Level of Service
      Components and Workload Indicators for the 2004–2007 Filing Seasons12

      Component                                 2004                2005              2006            2007

      Average Speed of Answer
                                                 184                 255              213              246
      (seconds)

      Busy Signals                             150,027            296,736           215,150         284,700
      Courtesy Disconnects                     618,273            624,051          1,121,571        341,994
      Selected Expanded
                                                9,650                 –                 –               –
      Access13

      Total Blocked Calls                      777,950            920,787          1,336,721        626,694

      Primary Abandons
                                                  7.1                5.5               6.2             6.6
      (millions)14

      Secondary Abandons
                                                  2.3                2.7               2.0             2.5
      (millions)
     Source: IRS Enterprise Telephone Data Warehouse.

Some primary abandons are controllable, while others are not. Taxpayers may hang up because
they did not have at hand the information needed for the call, such as a Social Security Number,
or because they find the toll-free telephone system too difficult to use. When taxpayers have
difficulties navigating the automated menu before being placed in the queue to speak to an
assistor, the IRS’ strategic goal of improving taxpayer service is not being met. In completing
customer satisfaction surveys during the 2007 Filing Season, taxpayers who called the IRS
toll-free telephone system identified “time to get through to the IRS” and “finding the
appropriate menu choice” as the top two improvement opportunities.15 Consequently, the
continued identification and correction of causes for high levels of primary abandons is
necessary.




12
   Due to changes in the methodology the IRS used to capture toll-free telephone data, the totals for previous filing
seasons in Figure 5 may not equal the totals presented in previous Treasury Inspector General for Tax
Administration reports.
13
   The Selected Expanded Access was a system that allowed a taxpayer to receive automated services in lieu of a
busy signal during periods of peak demand. It was discontinued in Fiscal Year 2005 because network prompting
now identifies upfront where to route the calls and sends them directly to assistors.
14
   The IRS refers to calls that disconnect before reaching the queue as primary abandons.
15
   IRS Customer Satisfaction Survey, Toll-Free Wage and Investment Division National Report, Covering January
through March 2007.
                                                                                                               Page 8
                       Toll-Free Access for the 2007 Filing Season Was Effective,
                            but the Quality and Level of Customer Service for
                             Spanish-Speaking Taxpayers Could Be Improved



The Joint Operations Center is leading a task force to verify and validate the use of the
IRS-defined measure “Primary Abandons” in a contact center environment. The task force plans
to focus on areas with the potential for correction, such as the menu scripts that direct a caller to
an appropriate service. It is conducting usability studies on the toll-free telephone scripts and
focus groups that will ascertain the public’s perception of the IRS and apparent reluctance to
provide personal information to it through the automated system.
In Fiscal Year 2007, the IRS implemented in the Accounts Management function a system of
enterprise queuing for toll-free calls called the Customer Voice Portal. This system queues
callers at a virtual, central point and routes each call to the next available assistor, regardless of
the assistor’s location. The IRS believes this enterprise queuing system will improve the
customer experience by reducing taxpayer wait time and maximizing the efficiency of assistor
resource use.

Assistors answered fewer calls per FTE, and calls were longer than during the
2006 Filing Season
Assistors answered 5,054 calls per FTE in the 2006 Filing Season compared to 4,795 calls in the
2007 Filing Season. In contrast, Assistor Availability, which measures the amount of time
assistors are idle or available to answer calls, increased .2 percentage points (and by 3.2 percent
overall) compared to the 2006 Filing Season. When Assistor Availability is low, assistors’ time
is being productively used and the cost of providing toll-free telephone services decreases.
Figures 6 and 7 show a comparison of calls answered based on FTEs and Assistor Availability
for the last four filing seasons.16




16
  The due date for the 2007 Filing Season ended on a weekend; therefore, there was a 2-day extension until
April 17, 2007. The totals for the 2004–2007 Filing Seasons in Figures 6 and 7 may not equal the totals presented in
previous Treasury Inspector General for Tax Administration reports.
                                                                                                            Page 9
                                                                                             Toll-Free Access for the 2007 Filing Season Was Effective,
                                                                                                  but the Quality and Level of Customer Service for
                                                                                                   Spanish-Speaking Taxpayers Could Be Improved



                        Figure 6: Comparison of Calls Answered                                                                                                                                         Figure 7: Comparison of Assistor Calls
                            and Assistor Availability for the                                                                                                                                            Answered per Toll-Free FTE for the
                               2004–2007 Filing Seasons                                                                                                                                                       2004–2007 Filing Seasons

                                                               17,500                                                                     10.0%                                                                             5,600                                                          3,150

                                                               17,000         9.0%                                                        9.0%                                                                                                                                             3,100
                                                                                                                                                                                                                            5,400      3,087
                                                                                                                                          8.0%
A s s is to r C a lls A n s w e r e d (in th o u s a n d s )




                                                               16,500                                                                                                                                                                                                                      3,050




                                                                                                                                                                                      C a lls A n s w e r e d p e r F T E
                                                                                                                                                                                                                                    5,454         5,433                            3,038
                                                                          16,836                                           6.4%           7.0%
                                                               16,000                                                                                                                                                       5,200



                                                                                                                                                  A s s is to r A v a ila b ility
                                                                                                          6.2%                                                                                                                                                                             3,000
                                                                                           5.2%                                           6.0%
                                                               15,500




                                                                                                                                                                                                                                                                                                   FTE
                                                                                                                                          5.0%                                                                              5,000                                                          2,950
                                                                                                                                                                                                                                                                 5,054
                                                               15,000
                                                                                         15,585                                           4.0%                                                                                                                                             2,900
                                                               14,500                                                                                                                                                       4,800                                   2,894
                                                                                                                         14,565           3.0%
                                                                                                         14,626                                                                                                                                      2,869                      4,795      2,850
                                                               14,000
                                                                                                                                          2.0%
                                                                                                                                                                                                                            4,600
                                                               13,500                                                                                                                                                                                                                      2,800
                                                                                                                                          1.0%

                                                               13,000                                                                     0.0%                                                                              4,400                                                          2,750
                                                                          2004            2005            2006            2007                                                                                                      2004          2005           2006           2007

                                                                        Assistor Calls Answered (in thousands)    Assistor Availability                                                                                                        Calls Answered Per FTE    FTE

Source: IRS Enterprise Telephone Data Warehouse.                                                                                                                                    Source: IRS Enterprise Telephone Data Warehouse.

                                                     While the IRS surpassed its Level of Service goal, the amount of time assistors are taking to
                                                     answer taxpayers’ questions (called Handle Time) has increased more than 12 percent over the
                                                     last 4 filing seasons, from 522 seconds in the 2004 Filing Season to 586 seconds in the
                                                     2007 Filing Season.
                                                     Many factors influence Handle Time, including the complexity of the issues and the types of tax
                                                     law or tax account questions. IRS.gov offers taxpayers many options to obtain answers to tax
                                                     law questions, through either research or use of interactive applications. However, the only
                                                     account service IRS.gov offers individual taxpayers is tax refund inquiry. Therefore, taxpayers
                                                     are more likely to use the toll-free telephone lines for tax account inquiries and more complex
                                                     tax law questions, which generally take longer to answer.
                                                     For the last three filing seasons, there has been a continued decline in the number of tax law calls
                                                     answered while the number of account calls answered has increased each year. For the
                                                     2007 Filing Season, assistors answered approximately 3.6 million tax law calls and 9.9 million
                                                     account-related calls.




                                                                                                                                                                                                                                                                               Page 10
                       Toll-Free Access for the 2007 Filing Season Was Effective,
                            but the Quality and Level of Customer Service for
                             Spanish-Speaking Taxpayers Could Be Improved



In addition, although the Transfer Rate17 has remained fairly constant for calls from taxpayers
seeking tax law assistance, it has increased during the last three filing seasons for taxpayers
seeking account assistance. This increases the time taxpayers are on the telephone. During the
2007 Filing Season, 17 percent of all calls were transferred, which is a 4 percent increase over
the 2006 Filing Season. Reducing the number of call transfers lowers taxpayer burden because
taxpayers spend less time on the telephone. The IRS’ cost to handle a call is also lowered when
the call is completed by the first assistor it is sent to and not transferred. Figure 8 shows a
comparison of these measures for the last four filing seasons.
     Figure 8: Comparison of Tax Law and Account Calls Performance Metrics
                       for the 2004–2007 Filing Seasons18

                                              Tax Law Calls                              Account Calls
 Performance Metric
                                   2004      2005       2006       2007      2004       2005      2006       2007
 Number of Calls
 Answered (millions)                 4.2        4.3     3.8        3.6         11.3       9.3     9.7        9.9
 Average Speed of
 Answer (seconds)                    162       188      223        211         200        299     215        265
 Assistor Response
 Level19                           64.4%      51.4%     55.5%      43.0%     44.6%      21.3%     38.6%      31.3%
 Secondary Abandons                 7.0%      8.5%      9.4%       8.1%      10.3%      13.9%     10.0%      13.7%
 Transfer Rate                     25.6%      25.5%     25.4%      25.5%     10.2%      10.7%     12.4%      13.5%

Source: IRS Enterprise Telephone Data Warehouse.

The Quality and Level of Customer Service for Spanish Applications
Were Lower Than Those Provided for English Applications
The IRS provides toll-free telephone service to Spanish-speaking taxpayers by using assistors in
designated call sites responsible for the Spanish applications. Calls in Spanish applications take
longer than those in English applications because assistors are taking the time to educate
taxpayers about the United States tax system and how the tax laws work. The differences in
cultural backgrounds and dialects require assistors to rephrase their answers if they are not
initially understood. Additionally, many Spanish-speaking taxpayers have multiple tax issues
that must be addressed during one call. Finally, after their initial questions are answered,

17
   The Transfer Rate compares the number of calls transferred by assistors to the number of calls handled.
18
   Due to changes in the methodology the IRS used to capture toll-free telephone data, the totals in Figure 8 for
previous filing seasons may not equal the totals presented in previous Treasury Inspector General for Tax
Administration reports.
19
   Assistor Response Level describes the percentage of callers who are connected to an assistor within 30 seconds.
                                                                                                           Page 11
                      Toll-Free Access for the 2007 Filing Season Was Effective,
                           but the Quality and Level of Customer Service for
                            Spanish-Speaking Taxpayers Could Be Improved



taxpayers often have other family members or friends who ask questions, requiring more time on
that one call.
Because their calls are longer, Spanish-speaking taxpayers wait longer to speak to assistors and
hang up more frequently. The abandon rate for Spanish applications is also higher than that for
English applications. For the 2007 Filing Season, calls in the Spanish applications were
abandoned at a rate of 21 percent, while calls in the English applications were abandoned at a
rate of 13 percent. Figure 9 shows that the Average Speed of Answer performance measure and
other workload indicators for Spanish applications for the 2007 Filing Season were higher than
those for English applications. This trend has occurred for the last four filing seasons.
               Figure 9: Comparison of Spanish and English Applications
                              for the 2007 Filing Season

                                                                              Numeric       Percentage
      Performance Metric                            Spanish      English
                                                                             Difference     Difference

      Average Speed of Answer (seconds)                 427        240           187            78%

      Average Hold Time (seconds)                       222        126           96             76%
      Average Talk Time (seconds)                       496        334           162            49%
                                      20
      Average Wrap Time (seconds)                       95          91            4              4%
      Average Handle Time (seconds)                     813        551           262            48%
     Source: IRS Aspect Application Activity Reports.

In addition, the accuracy rate for answers provided for the Spanish applications is lower than that
for the English applications. For the 2007 Filing Season, accuracy rates for both applications
were:21
                     Spanish Accounts          89.6%      English Accounts       93.6%
                     Spanish Tax Law           83.3%      English Tax Law        89.8%
In reviewing a judgmental sample of calls with long handle times in the Spanish applications
from January 1 through April 20, 2007, quality reviewers found that assistors are not always
following guidelines. For example:




20
  Wrap time is the time an assistor spends taking actions to complete a call after the taxpayer hangs up.
21
  Unweighted accuracy rates are shown for comparison purposes because weighted accuracy rates are not available
for Spanish Accounts and Spanish Tax Law separately. The IRS combines the Spanish Accounts and Spanish Tax
Law and reports a combined weighted accuracy rate. The weighted accuracy rate for Spanish Accounts and Tax
Law for January 1 through April 30, 2007 was 89.5 percent.
                                                                                                       Page 12
                        Toll-Free Access for the 2007 Filing Season Was Effective,
                             but the Quality and Level of Customer Service for
                              Spanish-Speaking Taxpayers Could Be Improved



•      Assistors receive calls with repetitive issues and make assumptions as to why the taxpayer is
       calling before the taxpayer explains why he or she called.
•      Assistors conduct unnecessary disclosure probing. The assistor is probing the taxpayer for
       disclosure issues after the assistor should be comfortable he or she is speaking with the
       correct taxpayer.
•      Assistors are unnecessarily taking additional time to identify the notice sent to the taxpayer
       by probing the taxpayer instead of using available tools to identify the notice.
•      Assistors are answering questions on topics/issues in which they are not trained.
In addition, some calls are disconnected because the research time takes too long. Even after
researching, the assistor often comes back with an incorrect answer.
IRS guidelines require that, to provide quality service, both Spanish- and English-speaking
assistors use the Probe and Response Guide, which is designed for assistors to use as a tool when
responding to telephone tax law inquiries on the topics covered in the Guide. Procedures require
assistors to ask appropriate questions to determine the caller’s inquiry and to obtain sufficient
information to accurately answer the inquiry. Assistors must also ask questions to ensure they
are following taxpayer authentication procedures.
IRS management is aware of the disparities between Spanish and English applications and is
addressing them through their national quality assurance program. Quality reviews are
conducted by managers and quality reviewers to help ensure the quality of the service provided
by assistors is sufficient. Both informal and formal training to assistors is also provided.
Finally, management officials stated attrition rates for Spanish-speaking assistors is very high
and recruiting is often difficult.
In Fiscal Year 2005, over 26 million calls from individuals were handled by assistors. Of those
answered, almost 2 million (8 percent) were Spanish calls. With 32 million speakers, Spanish is
the most commonly used language other than English in the United States. Almost one-half of
all Spanish speakers, approximately 15 million, reported they speak English less than “very
well.”22 The IRS should ensure Spanish-speaking taxpayers receive services comparable to those
provided to English-speaking taxpayers.

Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should monitor the
performance for the Spanish applications and take appropriate corrective actions if performance
does not improve.


22
     The 2007 Taxpayer Assistance Blueprint Phase 2, April 2007.
                                                                                               Page 13
                     Toll-Free Access for the 2007 Filing Season Was Effective,
                          but the Quality and Level of Customer Service for
                           Spanish-Speaking Taxpayers Could Be Improved



        Management’s Response: IRS management agreed with this recommendation.
        They view monitoring performance on all applications as an ongoing standard operating
        procedure and continually monitor performance and take appropriate corrective actions,
        as needed, for all their applications.
        Office of Audit Comment: In its response, the IRS stated that it disagreed with the
        way we characterized the examples found on report page 13 concerning why quality is
        not as high for Spanish applications as it is for English applications. The IRS stated the
        examples in the report are not valid representations of why quality is not as high for
        Spanish calls. However, the examples in the report were provided by IRS quality review
        staff to be representative of the types of problems identified in the calls reviewed.

The Telephone Excise Tax Refund Automated Message Did Not Allow
Callers the Option of Returning to the Main Menu
To help minimize assistors’ time answering TETR-related questions, the IRS provided taxpayers
the option of hearing an automated message about the TETR. The first menu item callers heard
when calling the 1-800-829-1040 toll-free telephone line was about the TETR. After the
welcome message, callers heard, “If you are calling about how to request the Telephone Excise
Tax Refund, press 7.” When callers chose this option, they were provided three additional
options:
•    Individuals who do not file a business Schedule C, E, or F23 or individuals who
     normally do not file a return, press 1.
•    Individuals who file a [Form] 1040 return with a business Schedule C, E, or F,
     press 2.
•    Corporations, partnerships, trusts, or tax-exempt organizations, press 3.
Once callers made their selections, they heard a detailed message on how to file for the TETR.
As of April 21, 2007, 542,947 callers had pressed 7 to hear the TETR recorded message, and
411,536 (75.8 percent) callers had selected 1 of the 3 additional options to listen to at least a
portion of the message. Nevertheless, after the recording ended, callers were not returned to the
main menu so they could make another selection or speak with an assistor; instead, the calls were
ended. Callers should be given an easy way to go back to the main menu and all submenus.
IRS officials stated the goal of the TETR message was to lead customers to venues other than the
toll-free telephone assistors. Given the unusual circumstances, abbreviated lead time, and
one-time nature of the TETR Program, they were concerned the potential volume of customers


23
  U.S. Individual Income Tax Return (Form 1040) Profit or Loss From Business (Schedule C), Supplemental
Income and Loss (Schedule E), and Profit or Loss From Farming (Schedule F).
                                                                                                    Page 14
                   Toll-Free Access for the 2007 Filing Season Was Effective,
                        but the Quality and Level of Customer Service for
                         Spanish-Speaking Taxpayers Could Be Improved



calling about the TETR could be very high and these callers could have a negative impact on
customers calling for assistance about other issues.
After developing and internally testing the TETR announcement, the IRS was confident that the
vast majority of customers would obtain the information they needed from the announcement or
via IRS.gov and would not need to speak with an assistor. To discourage unnecessary referrals
to assistors and minimize the impact on system capacity, the IRS designed the message without
an option to go back to the main menu or to an assistor. Additionally, the IRS believed allowing
the taxpayer an option to repeat the message or step back in the menu would have required
keeping the caller in the system longer, possibly denying service to other customers
(i.e., blocking more calls).
The IRS planned for 2.3 million TETR Assistor Calls Answered during the 2007 Filing Season.
When the planned volume of calls did not materialize, the risk of service denial was significantly
reduced. After comparing the number of received calls against planned calls and evaluating the
impact on service, the IRS could have later added a prompt to return the taxpayer to the main
menu. However, IRS officials stated they try to avoid program changes during each filing
season because of the potential negative impact the changes might have during peak demand. In
addition, changing the telephone menu and scripts would have required pulling resources from
current assignments to design, document, test, and implement the changes.
We believe callers should be given the option to return to the main menu, which provides better
customer service and is common practice on customer service telephone lines. Industry literature
advises call centers to let callers feel in control. In addition, callers should be given a way to
reach an assistor by pressing zero (0). In the case of the TETR message, taxpayers returning to
the main menu might have required other taxpayers to wait longer or be denied service. This
could have been factored into the workload indicators and Level of Service for the filing season,
similar to other toll-free telephone program changes.

Recommendation
Recommendation 2: The Commissioner, Wage and Investment Division, should ensure
taxpayers have the option of returning to the main menu the next time the IRS uses a recorded
message to provide information to taxpayers, if adequate system capacity exists.
       Management’s Response: IRS management agreed with this recommendation.
       However, they are unsure when they will need to use a recorded message to provide
       taxpayers with information. If, and when, they need another recorded message, they will
       ensure taxpayers have the option of returning to the main menu, if adequate system
       capacity exists.




                                                                                          Page 15
                       Toll-Free Access for the 2007 Filing Season Was Effective,
                            but the Quality and Level of Customer Service for
                             Spanish-Speaking Taxpayers Could Be Improved



                                                                                                     Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the customer service toll-free telephone
access during the 2007 Filing Season.1 To accomplish this objective, we:
I.       Evaluated the IRS’ preparation of the toll-free telephone system for the 2007 Filing
         Season.
         A. Analyzed IRS planning documents for references to toll-free telephone access.
         B. Identified any new tax law legislation passed during Calendar Year 2006.
         C. Reviewed the U.S. Individual Income Tax Return (Form 1040) instruction booklet
            and Your Federal Income Tax for Individuals (Publication 17) to determine the
            accuracy of published toll-free telephone numbers.
         D. Determined the process used to develop the workplans for the 2007 Filing Season.
II.      Determined whether the IRS implemented any new operational processes to improve
         taxpayer access to the toll-free telephone system for the 2007 Filing Season.
III.     Attended biweekly executive status meetings and reviewed toll-free telephone reports and
         workplans used to monitor call volumes and respond to any unanticipated changes in call
         patterns or problems taxpayers experienced in accessing the toll-free telephone system.
IV.      Determined whether the toll-free telephone program achieved its 2007 Filing Season
         goals by reviewing the performance measures and indicators. This included comparing
         the 2007 Filing Season performance to that of prior filing seasons. Performance data
         were obtained from the Enterprise Telephone Data Warehouse.2 We did not validate
         these data due to resource limitations.
V.       Determined whether toll-free performances for English and comparable Spanish
         applications3 were significantly different, leading to Spanish-speaking taxpayers not
         receiving a level of service comparable to that of English-speaking taxpayers.
VI.      Determined whether the IRS decreased taxpayer services from the levels provided in
         Fiscal Year 2006.

1
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
2
  The Enterprise Telephone Data Warehouse is the official source for all data related to toll-free telephone measures
and indicators.
3
  The toll-free telephone assistance lines are subdivided into categories called applications, each of which is staffed
with a group of assistors that have received specialized training to help taxpayers with specific tax issues.
                                                                                                              Page 16
                 Toll-Free Access for the 2007 Filing Season Was Effective,
                      but the Quality and Level of Customer Service for
                       Spanish-Speaking Taxpayers Could Be Improved



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Paula W. Johnson, Audit Manager
Jackie E. Forbus, Lead Auditor
Tracy K. Harper, Senior Auditor
M. Jean Bell, Auditor
Roberta A. Fuller, Auditor




                                                                                   Page 17
                 Toll-Free Access for the 2007 Filing Season Was Effective,
                      but the Quality and Level of Customer Service for
                       Spanish-Speaking Taxpayers Could Be Improved



                                                                          Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Joint Operations Center, Wage and Investment Division SE:W:CAS:JOC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                Page 18
                      Toll-Free Access for the 2007 Filing Season Was Effective,
                           but the Quality and Level of Customer Service for
                            Spanish-Speaking Taxpayers Could Be Improved



                                                                                               Appendix IV

                               Joint Operations Center

The Joint Operations Center serves as the central control organization for all of the IRS’ toll-free
telephone call routing. It uses intelligent call management software to control and route calls to
call centers and assistors who have the skills and are available to answer the calls. In addition, it
monitors the call centers for abnormally high queue (wait) times and/or the number of assistors
that are idle or available to answer calls. When this occurs, actions are taken to modify routing
scripts and balance the workload and associated staffing. In 2007, the IRS implemented a
system of enterprise queuing for the toll-free calls in the Accounts Management function. The
Customer Voice Portal queues callers at a virtual, central point and routes each call to the next
available assistor, regardless of the assistor’s location. The Customer Voice Portal should
improve the customer experience by reducing the call wait time and maximizing the efficiency of
assistor resource use.
The Joint Operations Center has the ability to trace one call from the time it is received to the
time the call is terminated but does not do so because of the large volume of calls received. The
IRS does, however, monitor key segments in the life of a call. For example, the IRS monitors
the call from the time it was answered by a screener to when it was transferred to an assistor or
from the time it was answered by an assistor to the time the taxpayer was transferred or the call
ended. The IRS believes this provides indications of the type(s) of service the average taxpayer
receives.
Taxpayers that call the IRS can receive automated services or choose to speak to a customer
service representative (assistor). For taxpayers using a touchtone telephone, the automated
services Telephone Routing Interactive System uses recorded information and interactive
applications to provide automated tax refund status information, permit taxpayers to obtain a
payoff amount for an outstanding balance due, or enable taxpayers to set up an installment
agreement to settle a delinquent tax debt. For example, when calling 1-800-829-1040 with a tax
law or account-related question, the taxpayer is provided, in English or Spanish, four touchtone
automated main menu options with secondary options:1
        1. Requesting information on the TETR. This option provides information about
           claiming the TETR.




1
  For the 2007 Filing Season, there was also an option for requesting information about the Telephone Excise Tax
Refund. This option transferred the caller to a recorded message. The filing season is the period from January
through mid-April when most individual income tax returns are filed.
                                                                                                         Page 19
                       Toll-Free Access for the 2007 Filing Season Was Effective,
                            but the Quality and Level of Customer Service for
                             Spanish-Speaking Taxpayers Could Be Improved



         2. Preparing or filing individual income tax returns or tax-related rules and regulations.
            This option provides the taxpayer with a second automated menu from which to
            choose the following options: (a) ordering tax forms or publications, (b) finding
            addresses to mail tax returns or payments to the IRS, or (c) getting help with other tax
            questions.
         3. Requesting information on a tax refund or personal tax account. This option provides
            the taxpayer with a second automated menu from which to choose the following
            options: (a) questions concerning a tax refund or (b) questions concerning a payment
            or personal account.
         4. Using the business and specialty tax line or obtaining the address for the IRS Internet
            web site.
         5. Repeating the above options.
If the taxpayer does not select an option or is calling from a rotary telephone and is unable to
select a touchtone option, the same script is repeated providing voice response options. If the
taxpayer selects an invalid option, he or she is transferred to an IRS employee (screener) who
screens and transfers the call to the appropriate assistor to answer the taxpayer’s question.
Assistors are trained and certified on specific applications2 for each current filing season.




2
 The toll-free telephone assistance lines are subdivided into categories called applications, each of which is staffed
with a group of assistors that have received specialized training to help taxpayers with specific tax issues.
                                                                                                              Page 20
                        Toll-Free Access for the 2007 Filing Season Was Effective,
                             but the Quality and Level of Customer Service for
                              Spanish-Speaking Taxpayers Could Be Improved



                                                                                                  Appendix V

       Toll-Free Telephone Services Individual Product
         Lines for the 2006 and 2007 Filing Seasons                                                      1




                                                Average
                             Assistor-          Speed of                                                   Level of
                             Answered           Answer            Primary              Secondary           Service
Product Lines                  Calls           (Seconds)         Abandons2             Abandons3         (Percentage)
                          2006       2007     2006    2007     2006       2007       2006      2007      2006    2007
Individual Income
Tax Services             6.6 M*      7.0 M     209     244     2.5 M     2.4 M     868,563     1.1 M     81.9    83.9
Business and
Specialty Tax
Services                  1.7 M      1.6 M     190     218    336,724   403,723    235,131    237,115    83.9    85.1
Refund Hotline            1.1 M      1.0 M     249     276     2.1 M     2.5 M     177,758    217,039    80.3    81.6
Business Master
File4 Customer
Response                 617,461    637,489    180     192    100,163    98,525     52,624     59,997    91.2    90.3
Small Business/
Self-Employed
Individual Master
File5 Customer
Response                 811,387    900,626    206     285    184,554   214,723    102,654    186,569    84.2    80.8
Wage and
Investment
Individual Master
File Customer
Response                  1.5 M      1.6 M     219     273    400,060   442,857    220,477    346,536    81.6    80.0
Refund Call Back          1.6 M      1.3 M     279     287    305,672   289,757    232,756    240,308    75.9    81.7
Special Services         65,853      7,840     169     342    14,383      3,210     9,352      2,616     85.7    73.4




 1
   The filing season is the period from January through mid-April when most individual income tax returns are filed.
 Numbers presented in this appendix are based on reports as of June 29, 2007.
 2
   The IRS refers to calls that disconnect before reaching the queue as primary abandons.
 3
   The IRS refers to calls that disconnect after reaching the queue as secondary abandons.
 4
   The Business Master File is the IRS database that consists of Federal tax-related transactions and accounts for
 businesses. These include employment taxes, income taxes on businesses, and excise taxes.
 5
   The Individual Master File is the IRS database that maintains transactions or records of individual tax accounts.
                                                                                                             Page 21
                          Toll-Free Access for the 2007 Filing Season Was Effective,
                               but the Quality and Level of Customer Service for
                                Spanish-Speaking Taxpayers Could Be Improved



                                                   Average
                               Assistor-           Speed of                                                  Level of
                               Answered            Answer            Primary             Secondary           Service
 Product Lines                   Calls            (Seconds)         Abandons2            Abandons3         (Percentage)
                            2006       2007      2006     2007    2006      2007       2006       2007     2006     2007
 Telecommunications/
 Teletype                    641        329      187      160    211,197   165,381      347        222      27.9    14.3
 National Taxpayer
 Advocate                  109,141    108,811    133      128    46,952    40,495     20,530     19,452     81.9    82.5
 Practitioner Priority
 Service                   317,709    367,214    136      129    38,752    44,046     20,936     26,078     92.6    92.4
 Taxpayer Assistance
 Center6 – CAS              9,429      8,396     122      194      12         15       2,018      2,051     78.7    79.2
 Volunteer Income
 Tax Assistance7            15,564    15,758     137      129     683        257       1,849      2,242     88.6    86.6
 International              56,295    58,423     267      260    26,347    26,880      7,785      9,533     86.5    84.5
 International
 Employer
 Identification
 Number                     13,875    15,774     191      376     5,391     5,279      1,283      3,576     91.1    81.2
 Totals8                   14.8 M     14.6 M      –        –     6.3 M      6.6 M      2.0 M      2.4 M      –       –
                                                      9
Source: IRS Enterprise Telephone Data Warehouse.

   *M = Million(s)




   6
     Taxpayer Assistance Centers provide taxpayers face-to-face assistance with interpreting tax laws and regulations,
   preparing certain individual tax returns, resolving inquiries on taxpayer accounts, accepting payments, and providing
   various other services designed to minimize the burden on taxpayers in satisfying their tax obligations.
   7
     The Volunteer Income Tax Assistance Program provides free tax return preparation assistance and electronic
   filing to underserved segments of individual taxpayers, including low-income, elderly, disabled, and
   limited-English-proficient taxpayers.
   8
     The individual product line totals will not sum to Totals because of rounding.
   9
     The Enterprise Telephone Data Warehouse is the official source for all data related to toll-free telephone measures
   and indicators.
                                                                                                              Page 22
     Toll-Free Access for the 2007 Filing Season Was Effective,
          but the Quality and Level of Customer Service for
           Spanish-Speaking Taxpayers Could Be Improved



                                                     Appendix VI

Management’s Response to the Draft Report




                                                            Page 23
Toll-Free Access for the 2007 Filing Season Was Effective,
     but the Quality and Level of Customer Service for
      Spanish-Speaking Taxpayers Could Be Improved




                                                       Page 24
Toll-Free Access for the 2007 Filing Season Was Effective,
     but the Quality and Level of Customer Service for
      Spanish-Speaking Taxpayers Could Be Improved




                                                       Page 25
